<html>
<title> - OVERVIEW OF COAST GUARD DRUG AND MIGRANT INTERDICTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
         OVERVIEW OF COAST GUARD DRUG AND MIGRANT INTERDICTION

=======================================================================

                                (111-13)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
48-204                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Justice, Rear Admiral Wayne E., Assistant Commandant For 
  Capability, U.S. Coast Guard...................................     5
Nimmich, Rear Admiral Joseph L., Director, Joint Interagency Task 
  Force South, U.S. Coast Guard..................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Coble, Hon. Howard, of North Carolina............................    31

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Justice, Rear Admiral Wayne E....................................    33
Nimmich, Rear Admiral Joseph L...................................    41

                       SUBMISSIONS FOR THE RECORD

U.S. Coast Guard:

  Response to question from Rep. Richardson......................    19
  Response to question from Rep. Richardson......................    21
  Response to question from Rep. Larsen..........................    29
  Responses to questions from the Subcommittee...................    58

[GRAPHIC] [TIFF OMITTED] T8204.001

[GRAPHIC] [TIFF OMITTED] T8204.002

[GRAPHIC] [TIFF OMITTED] T8204.003

[GRAPHIC] [TIFF OMITTED] T8204.004

[GRAPHIC] [TIFF OMITTED] T8204.005

[GRAPHIC] [TIFF OMITTED] T8204.006

[GRAPHIC] [TIFF OMITTED] T8204.007

[GRAPHIC] [TIFF OMITTED] T8204.008

[GRAPHIC] [TIFF OMITTED] T8204.009

[GRAPHIC] [TIFF OMITTED] T8204.010

[GRAPHIC] [TIFF OMITTED] T8204.011

[GRAPHIC] [TIFF OMITTED] T8204.012

[GRAPHIC] [TIFF OMITTED] T8204.013

[GRAPHIC] [TIFF OMITTED] T8204.014



    HEARING ON OVERVIEW OF COAST GUARD DRUG AND MIGRANT INTERDICTION

                              ----------                              


                       Wednesday, March 11, 2009

                   House of Representatives
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. Good morning. This hearing is called to 
order.
    Today, the Subcommittee convenes to examine the Coast 
Guard's drug and migrant interdiction operations and policies. 
Many people in the United States who do not live near the water 
or work in the maritime industry may have little interaction 
with the Coast Guard and may simply not be aware to the 
critical importance of the service's work. However, the Coast 
Guard's work touches every community in this Nation, and that 
is particularly true of the service's interdiction missions.
    I live in Baltimore's inner inner city, and I have seen 
firsthand how addiction can blind young people to their hopes 
and dreams and possibilities. I have also seen how drugs can 
destroy not only people, but communities. I have seen young men 
lured into prison, instead of college, by traffickers, and I 
have seen young women selling their bodies on our streets to 
feed their habits.
    It is almost impossible for me to express how deeply I am 
troubled by this waste of human lives. However, I am heartened 
by the successes that the Coast Guard is achieving in 
interdicting illegal drugs.
    Put simply, every ounce of an illegal drug interdicted at 
sea is an ounce that is kept off of our streets. Every ounce 
interdicted is an ounce that cannot destroy a life, family, or 
community. And every ounce interdicted is money kept out of the 
hands of illegal drug cartels and even potentially terrorist 
organizations.
    In 2007, the Coast Guard removed just under 356,000 pounds 
of cocaine, with an estimated street value of more than $4.7 
billion. The Coast Guard surpassed this outstanding record in 
2008, removing nearly 368,000 pounds of cocaine.
    The Coast Guard, working with its Federal and international 
partners, has achieved these record results at a time when the 
service is increasingly constrained by the limits imposed by 
its aging assets and while managing an ever-expanding workload 
arising from its other very critical missions.
    It is important for us to understand from today's hearing 
the factors that may be limiting the service's ability to seize 
additional amounts of illegal drugs. I am particularly 
concerned to know whether our intelligence capabilities, which 
are centered on facilities like the Joint Interagency Task 
Force South, ably represented today by Admiral Joseph Nimmich, 
are gathering intelligence faster than we can act on it.
    We will also examine the emerging threats we face. In 
recent years, smugglers have begun using semi-submersible 
vessels, some self-propelled and some towed behind other boats. 
These vessels, known as SPSS vessels, can carry large 
quantities of drugs. In January of this year alone, the Coast 
Guard removed four such SPSS vessels carrying an estimated 
combined total of more than 50,000 pounds of cocaine.
    The emergence of SPSS vessels and the ships now observed in 
maritime smuggling routes testify to the increasing ability of 
the Coast Guard and our partner agencies to interdict drugs 
carried in more conventional ways. However, they also testify 
to the willingness and the ability of smugglers to innovate, 
and that is why we must always be a step ahead of the smugglers 
if we are to continue increasing interdiction rates.
    Congress responded to the SPSS threat by passing 
legislation last year making the operation of a stateless SPSS 
vessel with intent to avoid detection a Federal felony. This 
legislation gives the Coast Guard and the Department of Justice 
a new weapon in the fight against drugs. We hope to examine 
today whether other legislative changes may be needed to 
respond to new threats.
    Another critical interdiction mission performed by the 
Coast Guard involves the interception of undocumented migrants 
at sea. According to the Coast Guard, in the first quarter of 
fiscal year 2009, more than 2,700 undocumented migrants tried 
to come to the United States by sea, a figure that is more than 
14 percent higher than the rates seen in the first quarter of 
fiscal year 2008.
    Most of the migrants interdicted by the Coast Guard 
originate from Cuba, Haiti, or the Dominican Republic. Many of 
those seeking to enter the United States put to sea in rickety 
vessels or even homemade rafts in an attempt to flee the 
desperation of their circumstances. Others are smuggled in go-
fasts operated by organizations and smuggling rings.
    The Coast Guard's work interdicting migrants is critical to 
preventing unauthorized entry into the United States. In many 
instances, the service is also rescuing individuals who may be 
at great risk in unsafe boats in open water.
    As with drug interdiction operations, we hope to examine in 
more detail today the trends that the Coast Guard is observing 
in migration, particularly as national economies experience a 
deepening world recession, as well as what measures may be 
needed to respond to them.
    In addition to Admiral Nimmich, we also are joined by 
Admiral Wayne Justice, the Coast Guard's Assistant Commandant 
for Capability. Admiral Justice is a familiar face to the 
Subcommittee, and we welcome you back.
    I will be in and out of the hearing because I have another 
hearing at the same time, but, believe me, I will be briefed on 
what I may have missed.
    With that, I will now yield to our distinguished Ranking 
Member, Congressman LoBiondo.
    Mr. LoBiondo. Good morning and thank you, Mr. Chairman, for 
holding this very important hearing.
    Among the armed forces, the Coast Guard is the only 
military service with the authority to enforce U.S. laws 
domestically and abroad. Coast Guard personnel carry out 
missions to protect our Nation's fisheries, secure our maritime 
border, and stem the tide of illegal drugs onto our streets.
    The demands on the Coast Guard personnel to successfully 
conduct these missions are extremely high and getting even 
higher. However, the service's assets are increasingly 
unavailable due to unscheduled and emergency maintenance needs.
    I am extremely concerned about the impacts that the 
decreasing availability of patrol boats and maritime patrol 
aircraft is having on the Coast Guard's law enforcement 
missions. I look forward to hearing from our witnesses on how 
the Coast Guard intends to deal with this increasingly widening 
gap.
    Last year, Congress responded to the Coast Guard's request 
for additional authorities to interdict stateless submersible 
and semi-submersible vessels, as the Chairman noted in his 
statement, that are increasingly being used by Colombian drug 
lords to ferry illegal drugs north to Central America and 
Mexico, and eventually onto our coast and onto our streets. 
Unfortunately, we did not take similar action on the service's 
longstanding request for strengthened authorities to apprehend 
and prosecute individuals who attempt to smuggle aliens into 
the United States.
    These alien smugglers attempt to bring thousands of 
undocumented migrants to the United States each year by sea, 
without any regard for law enforcement or for the health and 
safety of the individuals they smuggle in. These smugglers are 
not in the business for humanitarian reasons. This is a for-
profit, big profit, dangerous, and illegal enterprise which 
needs to end.
    I intend to introduce legislation with Congressman Mica--
and hopefully a number of others who will see the merits of 
moving forward with this authority for the Coast Guard--to 
close these loopholes which give the Coast Guard little choice 
other than to return alien smugglers to their countries of 
origin, which is an unacceptable alternative.
    This bill will generally follow the guide of legislation 
which passed the House in the 110th Congress, but would fall 
under the jurisdiction of this Committee. Our bill will 
carefully target the smugglers who show a reckless disregard 
for human life and not the passengers, who are too often caught 
up in the tangled lies of the smuggling rings.
    I hope that the witnesses will address this and other 
important issues which are impacting the Coast Guard's law 
enforcement message, and I hope, Mr. Chairman, that you will 
look at this legislation closely and decide to join in with me 
to ensure that alien smuggling legislation is enacted as part 
of the Coast Guard's reauthorization bill during the 111th 
Congress.
    Thank you, Mr. Chairman.
    Mr. Larsen. [Presiding] Thank you, Mr. LoBiondo.
    Do any other Members have an opening statement? Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman. In the interest of 
time, Mr. Chairman, I would like my entire statement to be made 
part of the record. But I will associate myself, Mr. Chairman, 
with the remarks made by the gentleman from New Jersey. He 
indicated that currently there are enormous procedural and 
jurisdictional hurdles that seem to protect, and maybe even 
embolden, alien smugglers, and clearly that deficiency should 
be addressed hopefully in this session of the Congress.
    I thank you, Mr. Chairman.
    Mr. Larsen. Without objection, your entire statement will 
be entered into the record.
    Mr. Olson, do you have an opening statement?
    Mr. Olson. Mr. Chairman, yes, I do, and I will be very 
brief. Thank you.
    Thank you, Mr. Chairman, and thank you, Admiral Justice and 
Admiral Nimmich. I appreciate your service and I appreciate 
your being here today to help us understand how our Nation is 
fighting the drug flow from South America and from Mexico.
    In my district, the Greater Houston area has experienced a 
tremendous increase in violence attributed to Mexican drug 
trafficking organizations in recent months. The drug violence 
in Mexico, the human trafficking, the gun trafficking going 
south from the United States has escalated to the point where 
Mexican nationals, in some cases, are fleeing to our side of 
the border, to cities in and around the Houston area, to 
protect themselves and their families from possible kidnapping 
and murder.
    Narco traffickers in Mexico are receiving the majority of 
the cocaine they distribute in the United States from countries 
in South America, particularly Colombia, that deliver drugs by 
boat or semi-submersibles in the western Gulf of Mexico and the 
eastern Pacific Ocean.
    The National Drug Intelligence Center at the U.S. 
Department of Justice has even found that Mexican drug 
trafficking organizations are using the Padre Island National 
Seashore south of the Corpus Christi metropolitan area, in sort 
of the Brownsville, the lower South Padre Island, in my home 
State as an entry point to smuggle drugs and illegal aliens.
    As the Mexican drug wars continue to escalate, the Coast 
Guard's drug and migrant interdiction efforts take on an even 
more critical role. I appreciate all the good work that the 
United States Coast Guard does to stop smugglers from bringing 
illicit drugs and illegal aliens to our shores, and I look 
forward to hearing your ideas on how we can better enforce our 
Nation's laws to ensure the integrity of our Nation's borders.
    Mr. Chairman, I yield back my time.
    Mr. Larsen. The gentleman yields back.
    We are now going to welcome the members of our panel. Rear 
Admiral Wayne Justice is the Coast Guard's Assistant Commandant 
for Capability and Rear Admiral Joseph Nimmich is the Director 
of Joint Interagency Task Force South.
    Let me note that Admiral Nimmich is under a time constraint 
today; he needs to depart at about 11:20 to attend an event 
with President Obama. Therefore, when we get to questions, we 
want to be sure that we ask questions of him before his 
departure.
    With that, we welcome both witnesses to our Subcommittee 
and we will start with Admiral Nimmich.

 TESTIMONY OF REAR ADMIRAL JOSEPH L. NIMMICH, DIRECTOR, JOINT 
   INTERAGENCY TASK FORCE SOUTH, U.S. COAST GUARD; AND REAR 
ADMIRAL WAYNE E. JUSTICE, ASSISTANT COMMANDANT FOR CAPABILITY, 
                        U.S. COAST GUARD

    Admiral Nimmich. Good morning, Mr. Chairman, Members of the 
Subcommittee. Thank you. I am Rear Admiral Joe Nimmich, and I 
have the privilege of being the Director of the Joint 
Interagency Task Force South, located in Key West, Florida.
    Mr. Chairman, today, 71 Americans will lose their lives to 
illicit drugs. Nineteen will be the direct result of cocaine. 
These Americans come from all walks of life; rich and poor, 
young and old, rural and urban. And as the Chairman pointed 
out, inner cities bear the largest burden.
    Also, nearly 17 Mexican citizens will be executed today in 
never before seen gang violence against each other and Mexican 
law enforcement and military.
    Joint Interagency Task Force South is a critical piece of a 
national strategy to reduce our dependence on illicit drugs. 
The Office of National Drug Control Policy has a multi-pronged 
strategy to address illicit drugs in the United States. The 
strategy focuses both on demand reduction at home and supply 
reduction in the source, transit, and border areas.
    Joint Interagency Task Force South is tasked with the 
interdiction of illicit traffickers in the transit zone. 
Illicit traffickers encompass the full spectrum of threats to 
national security, presenting a formidable challenge to our 
future, as well as our partner nations. Today, we are faced 
with a highly mobile, asymmetric trafficking threat with the 
advantages of many years of experience smuggling illicit 
contraband throughout the region, and now globally, presenting 
a truly transnational threat.
    In order to move people and cargo towards the United States 
and international markets, well resources illicit traffickers 
exploit the vast air, land, and maritime domains, using both 
legitimate and illegitimate methods of conveyance. Traffickers 
have established an agile and viable infrastructure for 
transporting large quantities of illicit cargo not only to the 
United States and to Europe, but to Africa and Asia as well.
    While focusing efforts on the transnational illicit threat, 
JIATF South has continued to disrupt record levels of cocaine 
bound for world markets, last year yielding 229 metric tons, 
statistically, 41 percent of the world's cocaine seizures and 
disruptions. This translates into the removal of $4.5 billion 
worth of cocaine, and this also reflects the removal of 71 hits 
of cocaine for each and every U.S. high school student.
    Even with this positive result, we cannot lose sight of the 
continuing funneling of illegal drugs across our communities 
and the corruption, violence, and instability that remains in 
the wake here at home and in the region which affects our 
national security. We also don't have to look far to cite these 
shared instabilities from illicit traffickers growing 
throughout our region. Frequently in the news are the reports 
on how Mexico has been plagued in recent years by drug-related 
violence, with powerful cartels battling each other and 
security forces.
    So far this year, more than 1,000 Mexican people have died 
in the results of this violence. Mexican anti-drug operations, 
however, have not reduced the violence, according to experts, 
due to the cartels' ability to buy off police and high-ranking 
prosecutors. JIATF South supports the Mexican effort by 
stopping cocaine flow before it arrives in Mexico, removing the 
money necessary for the cartels to continue the violence.
    Violence in Guatemala, although not highlighted in the 
media as much as in Mexico, has reached similar levels, with 
thousands of assassinations. Violence costs Guatemala the 
equivalent of 7.3 percent of its GDP, and it is the fourth 
highest rate of violence in Latin America, with a homicide rate 
of 55.4 per 100,000 residents.
    In 1989, JIATF South was established to focus on the supply 
of south-to-north flow of drugs from South America towards the 
United States. Since 9/11, the command has grown in operational 
perspective to become more inclusive with the demands of the 
changing security environment. Daily, we conduct interagency 
operations against illicit traffickers by highly mobile, 
asymmetric threats originating in the transit zone. Our joint 
operating area, through the detection and monitoring of illicit 
air and maritime targets intelligence fusion, multi-sensor 
correlation, information sharing, and handing off to our law 
enforcement agencies and partner nations for the interdiction 
and apprehension.
    In spite of our challenges, we continue to be successful. 
Two primary reasons: first, JIATF South is a dynamic and 
evolutionary organization, one continuously adapting itself to 
evolving target sets; and second is the national and 
international unity of effort found within our command that 
spans geographic and functional boundaries, bringing with it 
operational efficiency and synchronized intelligence.
    Thank you for the opportunity to discuss our threat and the 
challenges we face in combating illicit trafficking. Thank you 
for your interest in our national integrated task force. I will 
be happy to answer your questions.
    Mr. Larsen. Thank you, Admiral. Exactly five minutes. 
Pretty good job. Great staffing.
    Admiral Justice.
    Admiral Justice. Good morning, Mr. Chairman and 
distinguished Members. I am honored to appear before you today 
to share the successes and challenges of the Coast Guard's 
maritime drug and migrant interdiction missions.
    The Coast Guard is the lead Federal agency for maritime 
drug interdiction in the transit zone and strives, with our DHS 
partners, to reduce the supply of drugs by denying smugglers 
the use of maritime routes and conveyances, spanning a 6 
million square area that includes the Caribbean and Eastern 
Pacific, roughly the size of the Continental United States.
    I will add to Rear Admiral Nimmich's comments and say that 
the Coast Guard and our partners could not do our job without 
the tremendous leadership and support of JIATF South.
    The Coast Guard continues to improve its capabilities 
through its recapitalization program. After successfully re-
engining our HH-65 helicopters. We have outfitted some of them 
with an Air-Use-of-Force capability that can disable non-
compliant go-fast vessels, as depicted in the pictures here.
    The overwhelming success of the Air-Use-of-Force program 
has resulted in smugglers using routes through Central American 
littorals with the attempt to evade U.S. patrol efforts by 
operating the territorial sea of our partner nations. The Coast 
Guard has targeted this tactic through a series of 27 maritime 
bilateral counter-drug agreements and arrangements. Our newest 
one, which was signed this past December with Mexico, marks a 
significant expansion. Just last month, using a recently 
approved operation center information exchange protocols, the 
Coast Guard was able to confirm the registry of a suspect 
Mexican flag fishing vessel. In less than one hour, the Coast 
Guard obtained permission from the government of Mexico to 
board the vessel and locate nearly 7 metric tons concealed 
within a hidden compartment.
    The effectiveness of any drug or migrant interdiction model 
requires successful prosecutions to levy consequences. Congress 
plays a critical role supporting Coast Guard efforts by 
providing legislation to combat illicit smuggling.
    Mr. Larsen. Admiral? Apparently, when I talk, the static 
goes away. Maybe you could switch microphones.
    Admiral Justice. Okay.
    Mr. Larsen. We will have that other microphone removed from 
the hearing room.
    Admiral Justice. I kind of liked that, sir, because the 
clock didn't work either.
    [Laughter.]
    Mr. Larsen. It is working up here.
    Admiral Justice. Most recently, Congress's rapid action to 
pass the Drug Trafficking Vessel Interdiction Act offers 
another powerful tool to counter difficult-to-detect self-
propelled semi-submersible vessels as a transport of multi-load 
tons of cocaine bound for the United States. Since the passage 
of this Act on September 13th, the Coast Guard has interdicted 
five such vessels, carrying an estimated 25 metric tons of 
cocaine. Thanks to this new law, U.S. attorneys are now able to 
prosecute suspect smugglers, even if the vessel is successfully 
scuttled and no contraband evidence recovered. The Coast Guard 
greatly appreciates the work of Congress in passing this vital 
legislation.
    Like the illegal drug threat, the flow of undocumented 
migrants on American shores is both a threat to human life and 
violates U.S. and international laws. The Coast Guard migrant 
interdiction operations are as much humanitarian efforts as 
they are law enforcement efforts. In fact, many of the migrant 
interdiction cases handled by the Coast Guard begin as search 
and rescue missions. During the first five months of 2009, 5300 
documented migrants attempted to enter the U.S. via maritime 
means. This number is up 25 percent during the same reporting 
period last fiscal year. The largest factor has been an overall 
increase in the flow from Haiti. We have had twice as many, 
nearly 3,000 rescues, compared to last year's same period.
    Just as we do in drug interdiction, we rely on 
technological innovation and partnership with other agencies 
and countries to counter alien smuggling. In Sector San Juan, 
between the Dominican Republic and Puerto Rico, robust 
interagency support for interdiction, prosecution, and 
deployment of a mobile biometrics capability in our 110-foot 
patrol boats has proven extremely effective in reducing the 
flow of illegal migration by over 75 percent since 2006. 236 
cases have been referred for prosecution that included 40 
aggregated felons and 90 aliens attempting to illegally re-
enter the United States after deportation. This initiative 
could not have been possible without the full partnership of 
US-VISIT, CBP, ICE, and the U.S. Attorney's Office in San Juan, 
the State Department, Dominican Navy, and others.
    Areas of concern is the potential for mass maritime 
migration, such as occurred in 1994, coming almost 
simultaneously from Cuba and Haiti. The Department of Homeland 
Security has developed Operation Vigilant Sentry Operations 
Plan. This fully integrated operation will work to deter 
illegal or unsafe migrant departures to interdict, repatriate, 
and detain migrant populations as necessary and appropriate to 
protect the security of the United States. While no one can say 
that we are fully ready for any contingency, I can say with a 
great deal of confidence that all DHS components and partner 
agencies are cooperating fully and are ready to deter and 
respond to a mass migration.
    As we look to the future, we are anticipating that DHS's 
secure border initiative coupled with Mexico's law enforcement 
efforts, will pressure drug and human smuggling organizations 
to move their operations offshore. In San Diego, we may be 
seeing the first signs of an uptick in maritime smuggling 
activity. We are leveraging the Coast Guard's Joint Harbor 
Operations Center in San Diego for integrating planning and to 
undertake joint operations with our Federal, State, local, and 
Mexican partners.
    I will add, Congressman Olson, that we have the same joint 
effort going on in the Texas-Mexico border off Corpus Christi.
    While I am immensely proud of our interdiction efforts, in 
recent years, Coast Guard personnel have been saddled with 
significant maintenance challenges associated with maintaining 
an aging fleet of offshore cutters that are increasingly 
experiencing lost operational days. Significant structural 
deficiencies resulting from advanced age have resulted in 
unplanned maintenance on board several cutters that prompted 
cancellation of patrols.
    The Coast Guard has undertaken a comprehensive 
modernization effort that will centralize key maintenance and 
logistics functions under the Deputy Commandant of Mission 
Support at Coast Guard Headquarters. This consolidation will 
enable more effective acquisition governance and asset 
oversight, standardized maintenance processes, and provide a 
single point accountability for life-cycle management of 
assets. Also critical, the implementation of the rest of the 
Coast Guard recapitalization program that will provide the 
cutters, aircraft sensors, intelligence collections and 
communications capabilities necessary to address adaptive drug 
trafficking organizations operating in an expansive maritime 
demand.
    Sir, whether operating thousands of miles downrange, off 
South and Central America or operating right off our coasts in 
our Nation's littorals, the Coast Guard, with its DHS and DOD 
partners, is playing a critical border security role, 
encountering a broad range of illicit activities in 
establishing smuggling routes throughout the maritime domain.
    Thank you for the opportunity to testify before you today, 
and I would be happy to answer questions.
    Mr. Larsen. Thank you both. I will start with questions 
with regards to the submersibles, obviously an innovation over 
the last couple years. Do you anticipate or can you talk about 
anything that you foresee in terms of other innovations we 
might expect from the drug smuggling community?
    Admiral Nimmich. Yes, sir. The drug smuggling community is 
highly adaptable, and our successes from 2006 actually drove 
them to develop and more successfully utilize the semi-
submersibles. As our success increases this year, we fully 
expect to see differences in how they do business, one of which 
is to just emphasize past successes. They are taking extreme 
advantage of our partner nations' littorals downrange, 
distributing their load--rather than carrying 6,000 tons in one 
vessel, putting it in four vessels, knowing that we have 
limited capacity to be able to react to that--and, finally, we 
continue to see a trend towards using legitimate containers--
not to the United States, but to Europe and Asia--as a method 
of being able to move cocaine out of the region and then 
potentially back into the United States through other 
mechanisms.
    Mr. Larsen. With regards to the movement towards the 
littorals, could you explain the reason for that a little bit 
more?
    Admiral Nimmich. Yes, sir. They clearly know that our 
partner nations downrange don't have the capacity we do, and 
they use the littorals. Even with our bilateral agreements, it 
requires more time to be able to respond and recognize the 
sovereign nature of the territorial waters of each of our 
partners. So as they move in and out--as a prime example, we 
have had two vessels in the last two days, high-speed, go-fast 
vessels run right along the territorial waters of Panama. I 
have a Navy vessel that tries to do the intercept and they move 
immediately into the Panamanian territorial waters because 
Panama restricts my ability to use naval vessels. When I have a 
Coast Guard vessel, I can exercise the bilateral and move a 
Coast Guard vessel in.
    So it is a challenge for me to keep the right assets in the 
right place to be able to identify and react to this, but they 
use our recognition of other nations' sovereignty as a tool to 
eliminate our ability to interdict. Panama will respond, but 
they have very limited capability, and often their capability 
isn't nighttime capable, and the drug cartels know that and 
they use that to their advantage.
    Mr. Larsen. In a situation like that, would you track the 
vessel until it gets to a place where--even if you are using a 
U.S. naval vessel, would you track the vessel until it gets to 
a place where you can interdict?
    Admiral Nimmich. Within the limited resources we have, we 
track as long as we can. It is hard to be able to maintain con 
activity when they go into the mangrove rivers and streams on 
the eastern pacific coast, so we do--in fact, we have had very 
good cases where we have been able to direct a partner nation's 
assets right into the interdiction, including Mexico, 
Guatemala, Nicaragua. All are providing capability within the 
realm of what they are capable of.
    Mr. Larsen. In terms of the level of intelligence that you 
can gather, level of information you can gather but you cannot 
respond to, respond to that intelligence, what are your 
limitations in response?
    Admiral Nimmich. It is a difficult question to answer 
because a lot of our intelligence starts out as human 
reporting, and human reporting's reliability needs to have 
validation, second or third sources. So often there is a lot of 
information out there, but its credibility is in question.
    I would say that we are about 50 percent capable of 
responding to actionable intelligence, where I can get 
validation, second source or some sort of a national technical 
capability that tells me, in fact, drugs are moving. I have the 
assets to be able to detect about 50 percent of that, sir.
    Mr. Larsen. So an estimate of what the gap between actual 
intelligence and ability to act might be about 50 percent?
    Admiral Nimmich. Yes, sir, and that is a combination of 
better intelligence capabilities within my command, and we are 
working very hard at using capabilities and techniques 
developed in Iraq and Afghanistan on networking and information 
management. Our intelligence community partners are bringing 
that capability to us in JIATF, so some of it is better 
intelligence and then some of it is just purely more assets, 
primarily maritime patrol aircraft.
    Once I have an area that intelligence leads me to, it is 
usually a fairly large piece of ocean, and if I can't fly an 
aircraft to physically find the contact that I am looking for, 
it is awfully difficult to move a ship to do the interdiction.
    Mr. Larsen. The next question I have sort of relates to the 
Deepwater Program, acquisition program. What particular assets 
coming out of that over the next several years are most fitting 
for the interdiction work?
    Admiral Nimmich.. Yes, sir. Clearly, the national security 
cutter is going to be in a phenomenal increase in capability 
not just by its endurance and the ability to proceed at a 
higher rate of speed, but its ability to do collections as 
well, things we can't quite talk about in this room, but they 
have national technical capability that will greatly enhance my 
ability to collect on communications intercepts.
    Additionally, the maritime patrol aircraft of the C-130Js 
are already proving themselves downrange and those acquisitions 
in long-range maritime patrol aircraft. The short-range 
maritime patrol aircraft have a value for me in terms of the 
Caribbean and work out of both Guantanamo Bay, but mostly out 
of Borinquen in Puerto Rico.
    And I will pass it off to Admiral Justice to add to that, 
sir.
    Mr. Larsen. Admiral Justice?
    Admiral Justice. Yes, sir. Thank you. I will just continue 
again. Our Deepwater recapitalization program focused on the 
offshore capability, whether it is cutters that can deliver 
helicopters in boats on-scene or long-range aircraft that are 
going to find, support the intelligence to get us where we need 
to respond to, is our focus.
    I would add, on the aircraft side, in addition to the C-
130s, whether it be the Hs that we are going to upgrade with 
center wing boxes or if it is the C-130Js, as we get as many as 
we choose to get of those, or its our cast, the other piece 
would be UAS, the unmanned aerial systems. And we are 
approaching that challenge with a DHS national asset construct, 
where CBP, who also operates the same asset, we are co-joined 
with them in a joint program office to move forward with both 
land and maritime variance of potentially a predator that will 
also add the ability to get this data that we need to respond 
to intelligence-wise.
    On the ship side, in addition to our national security 
cutters, we have been fortunate to be able to let the contract 
for our fast response cutters, an extraordinarily capable and 
advanced, and it will be new cutters that replace our 110s.
    And then our next step, sir, is the offshore patrol cutter, 
that middle band which is going to replace our 210s and 270s, 
the 40-year-old ships that are just neither big enough nor fast 
enough, and absolutely are not reliable enough now to continue 
moving forward and addressing these challenges.
    Mr. Larsen. Sure.
    Admiral Nimmich. If I could just add on to that. The 
offshore fast response cutters, the patrol boat replacements, 
come from a Dutch design that I have actually sailed on in the 
Caribbean, one in Curacao and one in St. Maarten, 
extraordinarily capable. And the one in Curacao is responsible 
for several interdictions that we have provided information 
down to the Dutch. These will make a great improvement in the 
Caribbean for me.
    Mr. Larsen. Just one more question from me, then I will 
turn it over to Mr. LoBiondo.
    With regard to helicopters, the Coast Guard doesn't have 
enough 65s to ensure that each large cutter deployed to 
interdict drugs has a tactical squadron, so what are the 
alternatives for acquiring additional squadron capacity for the 
Coast Guard?
    Admiral Justice. Sir, I appreciate the question. Yes, you 
are right, as we balance our aviation assets with the missions 
that we have, whether they be coastal or search and rescue or 
security, pollution response or putting one of our cutters 
offshore, we need to continue to look at that balance and to 
assess the amount of resources that we have and that we need. 
The way we do it now, of course, is that we outfit two or three 
cutters with support supplies, and then we might share that 
helicopter with those cutters. That works if they are in range. 
And that is not a panacea, that is just a tactic. So we 
appreciate that issue, sir, and we understand that challenge.
    Admiral Nimmich. Mr. Chairman, from my perspective, having 
a vessel without a helicopter is extremely limited, 
particularly when you talk about the small boat threat that we 
talked about. A vessel never can stop them, it is the airborne 
use of force capability that the Coast Guard has developed that 
is my ace in the hole when it comes to interdicting go-fasts. A 
vessel that I have in contact within 150 mile square box, a 
Coast Guard cutter without a helicopter has about a 7 percent 
chance of detection. With a helicopter, that goes up to about 
40 percent. And when I put maritime patrol aircraft over the 
top, if I know there is a contact in that box, I have about an 
80 percent interdiction rate. So the helicopter becomes a 
hugely critical factor for me, sir.
    Mr. Larsen. Pretty clear. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Congressman Olson is 
under a time constraint, so I would like to yield my time to 
Congressman Olson, if that is okay.
    Mr. Larsen. Without objection.
    Mr. Olson. I would like to thank my colleague, the Ranking 
Member, and thank the Chairman for your patience and your 
making allowance for my time constraints.
    Admiral Nimmich, it sounds like the Drug Trafficking Vessel 
Interdiction Act has been very successful and has given you 
another tool in your toolbox, so to speak. I just was wondering 
if you have seen--now that it has been implemented, as you 
know, you have a measure and then a countermeasure comes. Have 
you seen a change in the way that the drug traffickers are 
using their semi-submersibles and any evidence that they are 
taking it to the next level and actually having fully 
submersible vehicles?
    Admiral Nimmich. Sir, we have had four interdictions this 
year, the Colombians have one, for a total of five 
interdictions. That puts us from what we believe out there at 
about a 70 percent--that puts the smugglers at about a 70 
percent success rate. That is down from an 80 percent success 
rate just last year. Of the four we have interdicted, 12 of the 
crew members are here in the United States under indictment, 
none have gone to trial yet; and the 4 others are waiting 
transport back to the United States. We expect that they will 
have to go to trial to test the law and test what the 
sentencing will be. But they are already providing valuable 
information back into how the semi-submersible structure works, 
how the drug traffickers use those, and we believe that we will 
be more successful this year than we have in the past because 
of the focus and the success that Congress has given us in 
being able to bring those crew members back and use the 
information they provide.
    Going from a semi-submersible to a submersible is an 
extraordinarily technologically difficult event. In 2000, you 
may recall that there was reporting on a truly true submersible 
being built in Bogota. That was being built with the industrial 
capability of a major city. Unfortunately, you can't sequester 
the people that are building it. People talk, they talk to 
friends, and suddenly there is a clue that allowed the 
Colombian police to find the building site. That was a Russian-
designed submarine. They can't build submarines in the jungle. 
The technical capability, the requirements for being able to 
pressurize the hull just don't exist. We believe that it is 
possible, but highly improbable, in the current environment.
    Mr. Olson. Thank you very much. One more question, a little 
closer to my home in Houston. As you know, the Houston area is 
experiencing an increase in drug trafficking and drug-related 
violence. Drug and migrant trafficking organizations seem to be 
getting bolder in the manner in which they try to move illicit 
drugs and illegal people in the United States. The National 
Drug Intelligence Centers found drug traffickers are using 
short distance maritime routes from Mexico to the remote parts 
of Padre Island, again, south of the Corpus Christi 
metropolitan area and north of the Brownsville area. Has the 
Coast Guard examined the use of these routes and potential ways 
to shut them down?
    Admiral Nimmich. Sir, we have known about and worked on 
those routes for a considerable length of time. JIATF South, as 
well as the interagency partners, are part of the ongoing surge 
efforts now both in San Diego and around the Brownsville, Texas 
area. Those are areas we are going to need to continue to 
watch. The real answer for me, sir, in the world I operate in 
is preventing the drugs from getting in Mexico in the first 
place, and that is what we do in the transit zone, when those 
drugs are in the multi-ton load, where you have the most 
impact. Once they enter Mexico, even across the borders in 
terms of Brownsville, they come in 100 kilos, 50 kilos, 75 
kilos. It takes far more infrastructure to be able to interdict 
them. So I focus on trying to take out the largest loads before 
they get to Guatemala and Mexico. If we can be successful in 
that, that eliminates the benefit to the drug cartels and 
eliminates their ability to fund the violence.
    Mr. Olson. One more final question. I am sorry, Admiral 
Justice?
    Admiral Justice. Sir, just to add to that, to put a local 
flavor on that, I can absolutely attest to the DHS partner sort 
of attention that that area gets, whether it be the border 
patrol on the river, the port ops people from CBP, or the Coast 
Guard station that handles the littoral piece there, it is an 
integrated effort. We know the challenge. There is a fisheries 
challenge as well as there is the drugs and migrants that 
potentially come in there. It is absolutely on the radar, sir, 
and we are working at it as efficiently as we can.
    Mr. Olson. Great. Thank you for that answer. One final 
question. You mentioned how successful the arrangement we have 
had with Mexico has been and the cooperation in fighting the 
war against drugs. Have you seen any evidence that the current 
unrest could jeopardize these efforts or that drug trafficking 
organizations will have assistance from elements of the Mexican 
government to avoid interdiction?
    Admiral Nimmich. Clearly, sir, the resources that the drug 
cartels have in terms of money allows for an extraordinary 
amount of corruption and instability in any country, and you 
saw that in Colombia four to six years ago. The place that 
Mexico is at is a turning point. They will either survive or 
they won't. I have not seen any in my interactions with either 
their Navy or their Air Force that work regularly with me. In 
fact, the Navy, if anything, has become far more proactive in 
giving me ready access to Mexican vessels, and when I can't 
find the drugs on them, taking them ashore and literally 
stripping them down to bear metal in order to see if there are 
drugs on there based on the information I provided. That was 
not true even just two years ago.
    Mr. Olson. Thank you for your answers. Thank you for your 
service.
    Mr. Chairman, I yield the floor.
    Mr. Larsen. Gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Chairman Larsen.
    And thank you, Rear Admiral Justice and Rear Admiral 
Nimmich for your testimony this morning, and thank you for your 
service and dedication to our Country and to the men and women 
whom you lead every day.
    My district includes Staten Island and portions of 
Brooklyn, New York, as you know, the gateway to New York Harbor 
and, as you know, the home to a very proud Coast Guard base at 
Fort Wadsworth. I grew up in Staten Island; I am a lifelong New 
Yorker. I lived through the terrible crack epidemic of the 
1980s and watched crime skyrocket in New York, at one point 
reaching more than 2,000 murders per year. And while the crime 
rate has dropped considerably since that time, the flood of 
cocaine and other illegal narcotics still causes great 
challenges to the residents of my district and the people 
across this Country.
    The hardworking men and women of the New York City Police 
Department and the police forces of all our localities put 
their lives on the line each day in fighting crime and getting 
drugs off the streets, but we all know that so much of their 
success and so much of the safety of our communities depends on 
the hard work that is done by all of you in the Coast Guard to 
stop drugs from entering the Country in the first place. So on 
behalf of all those people and New York and around this 
Country, I thank you.
    Hand in hand in stopping illegal drug trafficking is the 
need to stop illegal immigration. We are a Nation of laws and 
we must protect our borders. We need to protect the integrity 
of our immigration policies and we cannot permit people to 
enter our Country illegally. The Coast Guard and the men and 
women who protect our borders from illegal immigration provide 
our front line of defense, because if we fail to protect our 
borders, then we will never be able to protect the American 
people from the threats of terrorism, crime, or disease.
    But we are also a Nation of immigrants, and the U.S. 
continues to be the great hope for so many people looking to 
make better lives for themselves and for others. When we in 
Congress debate how to deal with immigration, we need to 
remember that immigration is a very human issue. In fact, I am, 
myself, the son of immigrants. My mother flew war torn Europe 
at the end of the second World War and settled here to raise me 
with my brothers and sisters. My hometown in New York City is 
currently undergoing a major surge in immigration. 
Approximately 40 percent of the city's residents were born in 
another country, close to an all-time high.
    Immigrants give New York, and the Nation as a whole, a 
wonderful mix of culture that makes being in America such an 
incredible and rich experience. But we cannot have people 
coming onto our shores who violate our laws and undermine our 
stated immigration policies, because doing so would undermine 
the security of us all. Again, therefore, we are all grateful 
for the great service and the valor that you exhibit every day.
    I would just like to ask you a question from your very 
important perspective in the Coast Guard. How would you 
describe the levels of cooperation you receive with other 
Federal, State, and local law enforcement officers, and how 
would you describe the cooperation you receive from foreign 
governments as well?
    Admiral Nimmich. I thank you very much for the question, 
sir, because that is the value and that is the nature of the 
business I do at JIATF South. JIATF South is an interagency and 
international command. I have 13 foreign liaison officers from 
11 countries throughout Central America, South America, and 
Europe. I also have all five Federal law enforcement officers 
that have authority in drug law enforcement, as well as six of 
the intelligence agencies, all located in the same command. It 
is that location and the ability to work together for a common 
end that make us as successful as we are. I find that when you 
get to the tactical level, it doesn't matter what agency you 
are from or what country you are from; you are looking to make 
the difference, and we have a great story to tell down at JIATF 
in that regard.
    As far as the partner countries, within their capacity, 
they operate as well as can be expected. Most of the countries 
in Central and South America have very little capacity and, 
with the downturn in the economy, find themselves even strapped 
for something as simple as the gasoline to run their boats. 
When they have the capacity, they respond and they respond in a 
very effective manner. There is not a country in the region 
that I have not had a report on that actually entered into a 
firefight in order to prevent the drug cartels from moving 
their product. These are people who put their lives at risk in 
terms of actually being shot trying to interdict the drug 
cartels. While the drug cartels choose not to move to that 
level of violence against U.S. assets, they are very quick to 
respond violently against our partner nations.
    Admiral Justice. Sir, I would like to first make a quick 
point. I am a Curtis High School Graduate in Staten Island.
    Mr. McMahon. Go Warriors.
    Admiral Justice. Yes, sir.
    I would like to make it local. The Safe Port Act, two years 
ago, has asked for Department of Homeland Security to develop 
interagency operation centers. We have one of those on Fort 
Wadsworth. The Coast Guard Sector Command Center there is also 
manned with CBP, with city police, city fire, State reps. We 
take that model and it is a regional sort of effort to fuse 
both intelligence and then fuse our operations. And it wasn't 
drugs or migrants, but I think you saw the response to the 
downed aircraft, that integrated response, and that was handled 
out of that Command Center, and I think that is a good example 
of how we are serious about interagency operability.
    Mr. Larsen. The gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. Gentlemen, good to have 
you all with us. In my opening statement, I alluded to the 
procedural and jurisdictional hurdles, and I want to follow up 
on that, Mr. Chairman.
    Under current law, Federal prosecutors typically must prove 
that a smuggler made a profit, actually induced migrants to 
make the voyage, or that a migrant was seriously injured, in 
order to pursue a felony charge. What prosecutorial tools, 
gentlemen, are required to aid in reducing maritime migrant 
smugglers and, therefore, improve the effectiveness of Coast 
Guard migrant interdiction operations?
    Admiral Justice. Yes, sir. The Coast Guard supports 
legislation that would simplify the elements of what it is 
going to take to prosecute these people. We would like to 
eliminate the for-profit requirement that has to be currently 
proven; we would like to have a minimum sentence for basic 
smuggling for three years--we have got to put some teeth into 
this, sir--we would like to request that Good Samaritans who 
claim they picked up people, they have to tell us right away, 
not use that as an excuse; and we would like to enhance seizure 
and forfeiture provisions in the act. A legislation that brings 
that to the table, sir, is what we are looking for and we are 
excited about it happening.
    Mr. Coble. And are you proceeding along that line now, 
Admiral?
    Admiral Justice. Yes, sir.
    Mr. Coble. Formulating it?
    Admiral Justice. That's correct, yes, sir.
    Mr. Coble. Thank you, sir.
    Gentlemen, the Coast Guard cutter fleet is experiencing 
severe readiness challenges, which you all had mentioned 
earlier, which are therefore decreasing the amount of days the 
Coast Guard is able to actually be on the water performing 
counter-drug and alien migration interdiction operations. I 
think you mentioned 149 lost days, Admiral, due to the GALLATIN 
and DALLAS being taken offline. What is required to address 
these gaps in availability of assets?
    Admiral Justice. Sir, as we recapitalize--and that takes 
time--we have got to keep these old ships running. To do that, 
what we are doing, to use the word modernize, but we are 
attending to the maintenance challenges in a different way. We 
are going to have asset oversight. We are going to have 
acquisition governance, much better governance in our 
acquisition. I won't get into that right now, as to the 
details, but that is very important. We are going to 
standardize our maintenance procedures and we are going to have 
a single point accountability for the life-cycle of these 
vessels.
    I have spent my career, as has Admiral Nimmich, sailing on 
ships that we have maintained in an ad hoc, almost haphazard 
manner. We have changed in that and we are going to have one 
person in charge of maintaining these ships nationwide, and we 
are going to do it in a consistent, repeatable, and a more 
efficient way. And we have got to do that now to keep these 
ships around while we recapitalize, sir.
    Mr. Coble. Admiral, I sailed on the same type cutters a 
long time ago, so they were probably plagued then too.
    Mr. Chairman, one final question, if I may.
    Admiral Nimmich. Mr. Coble, if I could add to that from my 
Coast Guard perspective, as opposed to my current job as the 
Director.
    Mr. Coble. Sure.
    Admiral Nimmich. And Wayne makes the point. We have always 
been responsible for operations and maintenance and training in 
a single entity, and our ethos drove us to do more operations 
rather than maintenance and training. By splitting the 
maintenance and training to a single individual who is 
responsible for that, then providing a well trained, well 
maintained asset to the operator to operate within those 
limits, breaks the paradigm of us sacrificing the future for 
current day operations.
    Mr. Coble. I thank you for that.
    Mr. Chairman, one final question.
    Gentlemen, what is the role of the maritime border when 
discussing a national concept or model of border security?
    Admiral Nimmich. Sir, as Admiral Allen, in his role as not 
only the Commandant, but the Chairman of the Interdiction 
Committee, which is responsible to ONDCP for coordinating at 
the policy level the Nation's response, he chartered us to look 
at exactly that mission set from a land, sea, and air 
perspective. There is a lot of work, as you would expect, on 
the Southwest border and land, and what is going on at EPIC and 
JTF North are testaments to DOD, DHS, all of the interagency 
coming together. A similar situation resides at the AMOC out in 
Riverside, California, CBP's Air and Marine Operations Center.
    Unfortunately, there is no common entity in terms of a 
similar view for the maritime. This past January, Admiral 
Allen, along with Admiral Roughead, stood up the National 
Maritime Intelligence Center in Suitland, Maryland. That Center 
is designed to bring all of the interagency together to look at 
the maritime borders the way we do land and air, sir.
    Mr. Coble. I thank you, gentlemen. Good to have you with 
us.
    Mr. Chairman, I yield back.
    Mr. Larsen. Thank you.
    The gentlewoman from California.
    Ms. Richardson. Thank you, Mr. Chairman.
    Admiral, it has come to my attention that the Coast Guard 
does not have enough HH-65 helicopters to ensure that each 
large cutter deployed to interdict drugs has a helicopter 
interdiction tactical squadron, called the HITRON helicopter on 
board. What are the alternatives for acquiring or leasing an 
additional HITRON capacity for the Coast Guard and what are the 
proposed costs of buying or leasing HITRON--and I apologize if 
I am not pronouncing it correctly--HITRON helicopter for these 
interdiction operations?
    Admiral Justice. Yes, ma'am. What we have done with the 
HITRON helicopters, we were leasing those helicopters, and what 
we have been able to do through an acquisition success, a good 
news story, is we took our regular fleet of HH-65s and we re-
engined 102 of them. We got those helicopters upgraded and we 
transitioned them to the ability to use force from them. We 
have outfitted some of them with machine guns and sniper 
rifles, and now we use those aircraft to do the HITRON mission.
    The challenge we have is we have got to continue to 
transition to get more of those helicopters outfitted so then 
we can use more of them down where Admiral Nimmich needs them, 
in the transit zones, doing this mission.
    We have continued to grow our helicopter fleet. We have got 
some new ones that have helped us do the mission in the 
Washington, DC area, the rapid response mission, so that fleet 
has grown. And since it is the same helicopter that we do many 
missions with, we have the ability to balance and use them 
where we are able to. We, unfortunately, had a tragic accident 
last year off of Hawaii, where we lost one of our helicopters, 
and we are looking to replace that. So that is sitting out 
there, but I think the goal is having our flexibility to be 
agile in how we use these helicopters to get as many as we can 
downrange to support the mission.
    Ms. Richardson. How much does it cost to retrofit?
    Admiral Justice. I would have to get that exact answer back 
to you. It is a few million dollars, but I can't give you the 
exact number, so if I could respond to that.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T8204.016
    
    Ms. Richardson. And how many do you think you need, sir, 
based upon what you have?
    Admiral Nimmich. Madam Representative, I still get cutters 
without helicopters, so the exact number the Coast Guard would 
need to provide the answer for the record. What I will tell you 
is that the conversion from the leased HITRON to using Coast 
Guard assets has increased the number that I have in the area. 
I had more ships with less helicopters in the past than I have 
now, but I still receive ships without helicopters, and, for 
the record, we will tell you what our fleet mix would need to 
be in order to have every ship have a helicopter on board.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T8204.017
    
    Ms. Richardson. So how many do you need?
    Admiral Nimmich. It depends on the number of ships I have 
at the given time, ma'am. We receive about half of the ships 
come with helicopters, and some of them it is not as easy to 
just say there is a set number. I receive medium endurance 
cutters which I utilize in a different way, our old 210s, I 
utilize them in a different way than I would our 270s or our 
378s in terms of carrying ship riders that allow us to be more 
flexible than even with a helicopter. So we balance it in 
multiple ways. But we will get you a number of what it would 
take to have every Coast Guard cutter with a HITRON helicopter 
on board.
    Ms. Richardson. Thank you, sir.
    My last question is, in December 2008, just a couple months 
ago, there was a report that was issued, the annual review of 
the Coast Guard's mission performance. This review found that 
there has been a trend towards providing emphasis on homeland 
security missions--which I happen to also serve on that 
Committee--while the performance of non-homeland security 
missions continue to fall short of performance targets. In 
fiscal year 2007, both drug interdiction and migrant 
interdiction performance goals were not met. Only one homeland 
security mission performance goal was not met. By comparison, 
only two of the six non-homeland security mission performance 
goals were met.
    Are the Coast Guard's efforts to meet drug and migrant 
interdiction goals and sustain performance at an increasingly 
high level taking resources way from the performances of other 
missions? And keep in mind I only have 20 seconds left.
    Admiral Justice. That is a tough question. Ma'am, I will 
say that----
    Ms. Richardson. Welcome to Congress.
    Admiral Justice. Ma'am, the Coast Guard, across our 11 
missions, we are absolutely focused on the performance of each 
and every one of those missions, and whether we get the X 
number of percent of drugs off the table--and we wish we could 
get more--or whether we rescue as many people as we hope we 
can--and we obviously wish we could get more there--or whether 
we can do our security mission and how well we do that--I know 
you hope we do that as well--we attempt and we absolutely 
balance as best we can the risks associated with failure and 
the successes that we need to have.
    We appreciate that Congress, last year--excuse me, this 
year, in the 2009 budget, provided us 400 extra people for some 
non-homeland security missions. We want to thank Congress for 
that. Those are important and those people are going to be put 
to use and will help us get those stats where they need to be.
    Ms. Richardson. As I conclude, I would just say that I have 
been on this Committee now just under two years, and I think 
the Chairman and both sides are very supportive of you doing 
the excellent job that you do and you want to continue to grow 
to do. So this is a new day. Tell us what you need and I think 
you will find your requests met, hopefully. Thank you.
    Admiral Justice. Thank you, ma'am.
    Mr. Larsen. The gentleman from New Jersey, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Young was unable to be here, but, with your permission, he 
would like to submit questions for the record to be answered.
    Mr. Larsen. Without objection.
    Mr. LoBiondo. Thank you.
    I thank you, gentlemen, for being here and for the 
tremendous job that you do and the Coast Guard does. Mr. Coble 
asked a couple questions that I had an interest in, but on your 
maritime patrol aircraft, we talked about the gap between the 
assets and what your needs are. Can you talk a little bit about 
how this gap is impacting the Coast Guard's intelligence and 
interdicting capabilities?
    Admiral Nimmich. I can give you a firsthand example, sir. 
Earlier this year we were flying--we had identified a go-fast 
that clearly had cocaine on board, the bales were obvious. 
While we maintained an MPA aircraft overhead in order to be 
able to interdict that and move an interdiction asset in place, 
we flew assets for almost 18 hours, vectoring in the vessel. We 
had a 15 minute gap because a plane had to do some minor 
repairs in order to get off the ground. In that 15 minute gap 
we lost contact with the vessel and never reacquired it again. 
Eighteen hours of hard flying as a result of not having enough 
MPA to get that overlap in a time frame that we could keep 
hands-on control of it, sir.
    That is just one of many examples. We don't have enough MPA 
to search the entire area.
    Admiral Justice brought up a good point: in my world, it 
doesn't really matter what flies, it is what sensors are on it. 
A year and a half ago, the Navy, along with the Coast Guard, 
the problems with the air wing boxes on P-3s and the challenges 
we have with C-13Hs, what they call red-striped, put on the 
ground or grounded 31 of their P-3 aircraft. Those were the P-3 
aircraft with marine radars, maritime radars on them. They 
replaced them hour for hour with a capable aircraft hull, but 
the aircraft had an air-to-air radar. Reduced my capability by 
one-third. So it is not just the hours, it is not just the 
aircraft type; it is really the sensor capability it carries. 
And unmanned vehicles, unmanned air vehicles truly have a 
capability that we are going to have to take advantage of.
    Mr. LoBiondo. You answered the second part of my question 
there, about the capabilities of maritime patrol. I want to 
switch now to Ecuador. We know that the government there has 
formally informed the United States that it will not renew the 
lease. I am curious, from your perspective, how the loss of the 
facility will impact our counter-drug operations through your 
organization.
    Admiral Nimmich. The biggest challenge for me, sir, is 
going to be able to provide support to the aircraft that do the 
MPA mission. We can fly MPA aircraft, at least Homeland 
Security MPA aircraft, out of other locations that give me as 
much range, such as Pokemon in Panama City and Perrier in Peru. 
My problem is, when one of those aircraft has a casualty, the 
ability to respond to that casualty is greatly lengthened 
because I don't have the infrastructure and the parts in place 
that I have in Manta.
    So we are working very heavily now at locating the right 
aircraft in the right place, trying to make sure our logistics 
systems are as robust as possible. But it is clear that we will 
have some additional maintenance and logistics challenges 
without Manta.
    Mr. LoBiondo. Is there a way to replace the logistical 
support that you are going to lose?
    Admiral Nimmich. Not without another facility like that. 
Any commercial airport will have some logistics capability, but 
the ability to have hangar space, the ability to have spare 
parts stored there, the ability to have repair personnel 
husbanded there is what we are going to be challenged with. And 
most of the partner nations downrange are very acceptable of 
Coast Guard and DHS aircraft; they have become far more 
resistant to DOD aircraft. So my aircraft mix, we have already 
got a plan in place to address my aircraft mix to have the 
right aircraft in the right place, flying more of my Department 
of Defense aircraft out of Curacao and Comalapa, our other two 
forward operating locations, as well as Gitmo, and utilizing 
the tremendous infrastructure in the Guantanamo Bay area, sir.
    Mr. LoBiondo. Mr. Chairman, thank you very much.
    Mr. Larsen. Thank you, Mr. LoBiondo.
    I have some questions regarding bilateral agreements. We 
talked about some of the gaps in assets of helicopters, as a 
for instance, but one of the gaps you have identified--you 
didn't identify it as a gap; I want to be careful how I word 
this, but there are some things that some of our partner 
nations can do and then they can't do it as well. So what level 
of patrols are our partner nations able to undertake and what 
are their interdiction levels in their countries as smugglers 
move to littorals?
    Admiral Nimmich. Clearly, sir, Colombia and Mexico are 
tremendous partners with a lot of capacity and a lot of 
capability, and very responsive. With the globalization of the 
cocaine flow, we find more and more of our European allies are 
bringing significant assets. Our Canadian partners are going 
to----
    Mr. Larsen. Are they bringing the assets into the region?
    Admiral Nimmich. Physically bringing assets. Over 13 
percent of my assets are provided by foreign nationals. We are 
now working with the Canadians to have a 1.0 presence after 
this summer in the Caribbean; that is one ship permanently down 
there at all times. We just finished discussions with the 
Australians, and they are coming over to test Australian 
operations in the Eastern Pacific under my tactical control. I 
have had a Brazilian vessel under my tactical control, the 
first time the Brazilians have given tactical control to one of 
their vessels since World War II. And the Spanish are also 
increasing their interest, particularly with maritime patrol 
aircraft. The British provide Nimrods, the French provide E-2s, 
the Canadians provide Auroras. I have a robust international 
association that is only growing both in their self interest 
and the fact that they want to try to stop the drugs as close 
to the source as possible, sir.
    Mr. Larsen. Does the command and control on those assets 
differ by country?
    Admiral Nimmich. Clearly, it does. And we worked very hard 
with countries that have robust infrastructure to provide them 
some of the ability to do the command and control. I have sub-
task groups with the Dutch in Curacao who operate their 
vessels, as well as Coast Guard vessels, under different 
operational scenarios. I have just signed, last June, a sub-
task group with the French out of Martinique. The French have a 
frigate permanently stationed there and, as a result of that 
sub-task group, we fully expect that they will permanently 
station a second frigate in Martinique in 2010.
    Mr. Larsen. Is this an increase in these relationships?
    Admiral Nimmich. It is an increase in relationships in 
terms of the amount of assets being provided. Some of the 
relationships are as old as JIATF itself is; the Dutch and the 
British have been with us from the very beginning. The French 
have participated, but not to the level that they are 
participating now. We have never had the Australians, the 
Brazilians before. The Canadians are now working through their 
judicial system to ensure that they can legally carry Coast 
Guard law enforcement attachments so that they are fully 
capable of not just doing the detection and monitoring, but 
switching their TAC on to Coast Guard oversight in order to do 
the interdiction and the apprehension. This international surge 
is making up for some of the lack of capability that we have.
    When I say lack of capability, it is not the days. Admiral 
Justice and I often talk about the fact that about 60 percent 
of the time Coast Guard assets are not fully mission capable. 
That means they are out there patrolling, but they may be on 
engine; they may be on their emergency generator; the aircraft 
may not be capable of flying. While they are there and the 
numbers show that the days are in location, the stress on the 
assets are causing them to be less than fully mission capable.
    Admiral Justice. Sir, I will just add another piece of 
support of these other nations that the Coast Guard brings to 
the table is we have training teams we deploy down to these 
countries to help them maintain their law enforcement 
capability and to help them maintain their boats and to surge 
out and support the missions.
    Mr. Larsen. Are there other aspects of technical assistance 
you provide?
    Admiral Nimmich. Yes, sir. We provide training teams that 
go all the way from being able to run their small boats to how 
to do a case package to how do to an appropriate interdiction, 
as well as do port calls with our vessels and then do training 
with our vessels.
    I just came back, yesterday I was in Trinidad and Tobago. 
Trinidad and Tobago is making one of the largest investments of 
any Caribbean island in terms of interdiction capability, 
interdiction capability that will not just be for Trinidad and 
Tobago, but for the entire Caribbean island chain. They are 
looking to partner with us and the U.S. Navy on how to build 
the skill sets to run these assets that they are buying. These 
assets are the equivalent of one of our 270-foot medium 
endurance cutters, but, yet, they haven't had an ocean-going 
vessel for over 10 years. So it is up to us to be able to 
provide the technical capability for them to make effective use 
of those assets.
    Mr. Larsen. Is this interest from the other countries, 
like, say, Australia, Spain, France, is it because they have a 
new will to participate or----
    Admiral Nimmich. The largest growing cocaine market in the 
world right now is in Spain. The price of a kilo of cocaine in 
Colombia is about $1700. In Miami, that is $23,000. In London, 
that is $70,000. The capabilities of the West African countries 
where the drugs are moving into are absolutely nil compared to 
even Central America, so they are going to a more lucrative 
market with less capability or less likelihood that they are 
going to be interdicted. Our European allies are recognizing 
that and coming to the source and trying to stop it before it 
gets out of the Caribbean.
    Admiral Justice. To further answer your question, sir, 
about other support we give, on a tactical basis, when we have 
a vessel that the country may have picked up and needs some 
support in doing the boarding or doing the search, we will 
actually fly the Coast Guard people down into the country to do 
technical assistance in the boardings and help them find secret 
compartments, help them find sometimes very intimately hidden 
contraband.
    Mr. Larsen. Just a couple more questions.
    I note Mr. Ehlers is here. Did you have some questions? I 
am not quite done.
    Mr. Ehlers. Yes.
    Mr. Larsen. Okay. All right.
    All this interest in the Caribbean East Pacific is great, 
but there is another maritime border that we have in the 
Country, and I want to just ask a few questions about that. I 
know we don't get a lot of attention paid to it in terms of 
certainly not migrant smuggling, but drug smuggling, certainly 
there is a fair amount of that going on between the U.S. and 
Canada, a lot of it at the land border, certainly some of it on 
the maritime border. Maybe, Admiral Justice, you can talk a 
little bit about how the operations differ, if they differ at 
all, on the maritime border for drug interdiction.
    Admiral Justice. Yes, sir. Thank you. I had the opportunity 
to spend some time in Bellingham and be part of our ship rider 
effort that we had up there with the Canadians. The challenge, 
of course, is the short distances, the international border, 
the distance, the magnitude of that border. The name of the 
game up there, of course, is the interoperability, the effort 
that we all put together toward the mission: communications 
planning, intel sharing. And I would submit that our people in 
Seattle are working all the interagency State and local, and 
with the Canadians through their IPED system, is the way we 
have to tend to business up there. We almost wish we can take 
an eraser and just erase that line between us and the Canadians 
and share our interdiction capabilities, which is kind of the 
road we are trying to be on. A different challenge, but one I 
think we are familiar with and working hard at.
    Mr. Larsen. I think perhaps one of the things that you 
heard up there with the smaller scale drug interdiction is that 
the small boats aren't equipped with thermal imaging systems 
that maybe larger cutters have. Can you comment on why that is 
and if that might be changing?
    Admiral Justice. Sir, that is a good point. We are 
replacing our 41-foot patrol boats with the RBM, built in 
Seattle, as a matter of fact, and world-class vessels that are 
both pursuit, search and rescue, heavy weather, multi-capable 
assets that we will look to have enhanced thermal imaging 
capabilities on there. So, sir, that is an accurate point that 
we are attempting to address.
    Mr. Larsen. Just so folks know, in 2003--and I am sure the 
numbers are updated--Station Billingham was responsible for 
seizure of about 1300 pounds of BC bud, 170 pounds of 
ephedrine, and about $713,000 in U.S. currency. Pales, I am 
sure, by the numbers here, but I noted in the staff memo that 
the marijuana that comes out of the growing operations in 
Canada actually has much more potency than the marijuana coming 
north out of the area, out of the Central American area. We 
don't know that cocaine and heroine drug smuggling problem, in 
terms of magnitude, but clearly the folks who work the border 
on the northern border, our border with Canada, both on land 
and sea, are doing their dead-level best up there to 
participate in this effort to interdict drugs, while we are 
doing the things we need to do on prevention, education, and 
treatment here in this Country.
    Congressman Ehlers from Michigan?
    Mr. Ehlers. Thank you, Mr. Chairman. I don't have a 
question so much as a lament. I deeply lament what this has 
done to our Country and to our young people. I often point out, 
when I speaking in schools and other places, that we are in a 
unique position, for example, in Afghanistan, where we are 
paying both sides of the war that is being fought. The drug 
money that flows from the United States to Afghanistan to buy 
the poppy and other drugs is diverted immediately to the 
Taliban, to others, and I just fail to understand how so many 
of our citizens can use drugs and think it is okay. And I 
recognize they get addicted and it is hard to break the 
addiction, but the entire culture that has grown up is, well, 
this is not so bad. You shouldn't do it and you can get hooked, 
but if you are careful you won't be.
    I just find that intolerable and I think--although you are 
doing a remarkably good battle of interdiction and trying to 
stop it, the basic problem is still the demand is there, and it 
doesn't matter whether it is the U.S. or Spain or Great 
Britain. The demand is still there, and as long as the demand 
is there, the price is going to go up, outrageous prices. And I 
bemoan the fact or lament the fact that in many cases the 
children of a family suffer because a parent is spending all 
the available cash on drugs, instead of feeding the kids. It is 
just such a sorry story all the way around, and you really 
wonder what happens, why people go down this track. I know a 
lot more knowledgeable people than I have spent a lot of time 
on this, but it is really a national tragedy. We are losing 
some of our best and brightest young people this way and we are 
wasting huge amounts of our resources, tax money, and other 
ways, and it just tears at my heart to see this happening to 
our Country and to other countries when there is no good reason 
for it whatsoever.
    So, having said that sermon, I will yield back. Thank you.
    Mr. Larsen. Thank you.
    I have one more question, but two items of business. 
Admiral Nimmich, the question I have is for Admiral Justice, so 
why don't we excuse you at this time?
    Admiral Nimmich. Mr. Chairman, thank you very much. I 
appreciate the opportunity to testify today on what is truly a 
national and international problem that I think we have more 
opportunity to have a positive impact on. Thank you for your 
questions, sir.
    Mr. Larsen. Thank you.
    Before I get to my question, I want to recognize--this may 
be a surprise to him--a former Member of the U.S. House of 
Representatives from Florida who served here for about a decade 
or so, Representative Louis Frey is in the audience. 
Representative Frey, why don't you stand and be recognized? 
Thanks for your service, sir.
    Mr. Frey. [Remarks off microphone.]
    Mr. Larsen. Thank you, sir.
    Finally, Admiral Justice, last Congress, the House did pass 
the Alien Smuggling and Terrorism Prevention Act of 2007 to 
help address the smuggling of aliens in a comprehensive manner, 
whether it be by sea or by land. You, I think, addressed some 
of these issues, but does the Administration support this 
comprehensive approach to alien smuggling that seeks to ensure 
that all smugglers can be prosecuted in the same manner, 
whether it is by attempting to smuggle people through the 
deserts in the Southwest or across the Caribbean?
    Admiral Justice. Sir, I will have to get that answer back 
to you. The new Administration is still looking at that, so let 
me please owe that one to you, sir.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T8204.018
    
    Mr. Larsen. Okay. Can we get a time line on when you can 
get back to us?
    Admiral Justice. I would say a week, sir.
    Mr. Larsen. Okay.
    Admiral Justice. Does that work, sir?
    Mr. Larsen. Okay.
    Admiral Justice. It can be quicker if it needs to be; we 
can push it.
    Mr. Larsen. You can always get it to us sooner. No problem 
around here.
    Okay, with that, thank you very much.
    Admiral Justice. Sir, my pleasure. Congressman Ehlers, I 
have a 17 year old son at home and I have a daughter at the 
University of Florida, sir, and those same concerns are right 
at home as well, so I appreciate the chance to articulate our 
efforts today in front of you, sir. Thank you.
    Mr. Larsen. Appreciate it very much. This hearing has been 
very helpful to the Committee.
    With that, we stand adjourned.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8204.019
    
    [GRAPHIC] [TIFF OMITTED] T8204.020
    
    [GRAPHIC] [TIFF OMITTED] T8204.021
    
    [GRAPHIC] [TIFF OMITTED] T8204.022
    
    [GRAPHIC] [TIFF OMITTED] T8204.023
    
    [GRAPHIC] [TIFF OMITTED] T8204.024
    
    [GRAPHIC] [TIFF OMITTED] T8204.025
    
    [GRAPHIC] [TIFF OMITTED] T8204.026
    
    [GRAPHIC] [TIFF OMITTED] T8204.027
    
    [GRAPHIC] [TIFF OMITTED] T8204.028
    
    [GRAPHIC] [TIFF OMITTED] T8204.029
    
    [GRAPHIC] [TIFF OMITTED] T8204.030
    
    [GRAPHIC] [TIFF OMITTED] T8204.031
    
    [GRAPHIC] [TIFF OMITTED] T8204.032
    
    [GRAPHIC] [TIFF OMITTED] T8204.033
    
    [GRAPHIC] [TIFF OMITTED] T8204.034
    
    [GRAPHIC] [TIFF OMITTED] T8204.035
    
    [GRAPHIC] [TIFF OMITTED] T8204.036
    
    [GRAPHIC] [TIFF OMITTED] T8204.037
    
    [GRAPHIC] [TIFF OMITTED] T8204.038
    
    [GRAPHIC] [TIFF OMITTED] T8204.039
    
    [GRAPHIC] [TIFF OMITTED] T8204.040
    
    [GRAPHIC] [TIFF OMITTED] T8204.041
    
    [GRAPHIC] [TIFF OMITTED] T8204.042
    
    [GRAPHIC] [TIFF OMITTED] T8204.043
    
    [GRAPHIC] [TIFF OMITTED] T8204.044
    
    [GRAPHIC] [TIFF OMITTED] T8204.045
    
    [GRAPHIC] [TIFF OMITTED] T8204.046
    
    [GRAPHIC] [TIFF OMITTED] T8204.047
    
    [GRAPHIC] [TIFF OMITTED] T8204.048
    
    [GRAPHIC] [TIFF OMITTED] T8204.049
    
    [GRAPHIC] [TIFF OMITTED] T8204.050
    
    [GRAPHIC] [TIFF OMITTED] T8204.051
    
    [GRAPHIC] [TIFF OMITTED] T8204.052
    
    [GRAPHIC] [TIFF OMITTED] T8204.053
    
    [GRAPHIC] [TIFF OMITTED] T8204.054
    
    [GRAPHIC] [TIFF OMITTED] T8204.055
    
    [GRAPHIC] [TIFF OMITTED] T8204.056
    
    [GRAPHIC] [TIFF OMITTED] T8204.057
    
    [GRAPHIC] [TIFF OMITTED] T8204.058
    
                                    

</pre></body></html>
